No. 19A-___

In the Supreme Court of the United States
__________
AMY CORBITT,
Applicant,
v.
MICHAEL VICKERS
Respondent.
__________
APPLICATION FOR AN EXTENSION OF TIME WITHIN WHICH TO
FILE A PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE ELEVENTH CIRCUIT

__________
TO THE HONORABLE CLARENCE THOMAS, ASSOCIATE JUSTICE AND CIRCUIT JUSTICE FOR
THE ELEVENTH CIRCUIT:
Pursuant to 28 U.S.C. § 2101(c) and Rule 13.5 of the Rules of this Court,
applicant Amy Corbitt, individually and as parent and guardian of her minor child,
S.D.C., respectfully requests a 59-day extension of time, to and including December
6, 2019, within which to file a petition for a writ of certiorari to review the judgment
of the United States Court of Appeals for the Eleventh Circuit. The Eleventh Circuit
issued its decision on July 10, 2019. Unless extended, the time to file a petition for a
writ of certiorari will expire on October 8, 2019. The jurisdiction of this Court will be
invoked under 28 U.S.C. § 1254(1).
A copy of the Eleventh Circuit’s opinion is attached.
1. This case arises from a shooting that took place in Coffee County, Georgia
on July 10, 2014. The incident began when a group of police officers, including

2
respondent, attempted to apprehend a suspect who had wandered into applicant’s
front yard. Slip op. 2-3.
As the officers moved onto applicant’s property, they demanded that everyone
in the yard, one adult and six minor children—“including [applicant]’s ten-year-old
child SDC and two other children under the age of three”—get down on the ground.
Slip op. 3. While everyone was on the ground and obeying respondent’s commands,
respondent shot twice at the family dog “without necessity or any immediate threat
or cause.” Ibid. The officer missed the dog, but the second bullet struck S.D.C. in the
back of his knee, resulting in severe pain and mental trauma. Slip op. at 3-4. The
child had been lying face-down on the ground, per respondent’s orders, “a mere
eighteen inches from [respondent] at the time the shot was fired.” Slip op. 39 (Wilson,
J., dissenting).
2. Applicant brought suit under 42 U.S.C. § 1983, asserting that respondent’s
actions had deprived applicant and S.D.C. of their Fourth and Fourteenth
amendment rights. Slip op. 4. As relevant here, the district court denied respondent’s
motion to dismiss, rejecting his claim of qualified immunity. Slip op. 5-6.
3. The court of appeals reversed, “hold[ing] that [respondent]’s action of
intentionally firing at the dog and unintentionally shooting SDC did not violate any
clearly established Fourth Amendment rights.” Slip op. 19. That was so because “[n]o
case capable of clearly establishing the law for this case holds that a temporarily
seized person—as was SDC in this case—suffers a violation of his Fourth Amendment
rights when an officer shoots at a dog—or any other object—and accidentally hits the

3
person.” Slip op. 27. The court of appeals therefore remanded with instructions to
dismiss the case. Slip op. 37.
Judge Wilson dissented, observing that “[b]ecause no competent officer would
fire his weapon in the direction of a nonthreatening pet while that pet was
surrounded by children, qualified immunity should not protect [respondent].” Slip.
op. 38 (Wilson, J., dissenting).
4. The petition for certiorari will demonstrate that review is warranted on at
least the following question: whether the doctrine of qualified immunity should be
narrowed or revisited entirely.
Indeed, there is “growing concern” about the lawfulness of qualified immunity
among judges, scholars, and Justices of the Court. Ziglar v. Abbasi, 137 S. Ct. 137 S.
Ct. 1843, 1870 (2017) (Thomas, J., concurring in part); see also, e.g., id. at 1872 (“Until
we shift the focus of our inquiry to whether immunity existed at common law, we will
continue to substitute our own policy preferences for the mandates of Congress. In an
appropriate case, we should reconsider our qualified immunity jurisprudence.”);
Zadeh v. Robinson, 902 F.3d 483, 498 (5th Cir. 2018) (Willett, J., concurring
dubitante) (“I add my voice to a growing, cross-ideological chorus of jurists and
scholars urging recalibration of contemporary immunity jurisprudence and its real
world implementation.”) (quotation marks omitted), revised on petition for rehearing
en banc, 928 F.3d 457 (5th Cir. 2019) (Willett, J., dissenting in part); William Baude,
Is Qualified Immunity Unlawful?, 106 Cal. L. Rev. 45, 46-49 (2018) (answering that
question in the affirmative); Joanna C. Schwartz, The Case Against Qualified

4
Immunity, 93 Notre Dame L. Rev. 1797, 1799 (2018) (“If the Court did find an
appropriate case to reconsider qualified immunity * * * the Court could not justify
the continued existence of the doctrine in its current form.”).
5. Good cause exists for an extension of time to prepare a petition for a writ of
certiorari in this case. Undersigned counsel of record was retained only recently and
has not yet had an opportunity to familiarize himself with the full record and issues
involved. Undersigned counsel also has several other matters with proximate due
dates before this Court, including a reply in support of certiorari due on September
23, 2019, in Nasrallah v. Barr, No. 18-1432; a petition for a writ of certiorari due on
October 3, 2019, in Texas Brine Company v. Florida Gas Transmission Company, et
al., No. 19A-106; oral argument on October 16, 2019, in Kansas v. Garcia, No. 17-834;
and a merits reply brief due on November 20, 2019, in Guerrero-Lasprilla v. Barr, No.
18-776, and Ovalles v. Barr, No. 18-1015.
For the foregoing reasons, the application for a 59-day extension of time, to and
including December 6, 2019, within which to file a petition for a writ of certiorari in
this case should be granted.

5
September 16, 2019

Respectfully submitted.

____________________________
PAUL W. HUGHES
Counsel of Record
McDermott Will & Emery LLP
500 North Capitol Street, NW
Washington, DC 20001
(202) 756-8000
phughes@mwe.com

